No.

In The

Supreme Court of The United States

Glen Plourde,
Petitioner
V.

Ashley Poulin,
Respondent

PROOF OF SERVICE
I, Glen Plourde, do swear or declare that on this date, August 20, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above-documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivering to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
ATTN: Jade Richards
Pine Tree Legal Assistance
PO Box 2429
39 Green Street
Augusta, Maine 04330-2429
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

■Zo

Additional material
from this filing is
available in the
Clerk's Office.

